No.

IN THE
SUPREME COURT OF THE UNITED STATES

PROOF OF SERVICE
I, Shawn Bishop, do swear or declare that on this date,
~7
2021, as required by Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party's
counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calendar days.
The name and addresses of those served are as follows:
Federal appeals Unit
Philadelphia District Attorney's Office
Three South Penn Square
Philadelphia, PA 19107

I, declare under the penalty of perjury that the foregoing is true and
correct.
Executed on /7?/9v 7

7

, 2021

/S/.

